No. 20-315

 

 

IN THE

Supreme Court of the United States

JOSE SANTOS SANCHEZ, et al.,

Petitioners,
Vv.

ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

BRIEF FOR NATIONAL IMMIGRATION
LITIGATION ALLIANCE, AMERICAN CIVIL
LIBERTIES UNION, AND NORTHWEST
IMMIGRANT RIGHTS PROJECT AS AMICI
CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,375 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
